<html>
<title> - U.S. POLICY TOWARD NATIONAL SELF-DETERMINATION MOVEMENTS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




                          U.S. POLICY TOWARD NATIONAL 
                      SELF	DETERMINATION MOVEMENTS

=======================================================================

                                HEARING

                               BEFORE THE

         SUBCOMMITTEE ON EUROPE, EURASIA, AND EMERGING THREATS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 15, 2016

                               __________

                           Serial No. 114-152

                               __________

        Printed for the use of the Committee on Foreign Affairs


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                 ______


                         U.S. GOVERNMENT PUBLISHING OFFICE 

99-470PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          















                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

         Subcommittee on Europe, Eurasia, and Emerging Threats

                 DANA ROHRABACHER, California, Chairman
TED POE, Texas                       GREGORY W. MEEKS, New York
TOM MARINO, Pennsylvania             ALBIO SIRES, New Jersey
MO BROOKS, Alabama                   THEODORE E. DEUTCH, Florida
PAUL COOK, California                WILLIAM KEATING, Massachusetts
RANDY K. WEBER SR., Texas            LOIS FRANKEL, Florida
REID J. RIBBLE, Wisconsin            TULSI GABBARD, Hawaii
DAVID A. TROTT, Michigan











                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Paul R. Williams, Ph.D., president and co-founder, Public 
  International Law and Policy Group.............................     4
Jason Sorens, Ph.D., lecturer, Department of Government, 
  Dartmouth College..............................................    21
Mr. Ivan Vejvoda, senior vice president for programs, German 
  Marshall Fund of the United States.............................    29

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Paul R. Williams, Ph.D.: Prepared statement......................     7
Jason Sorens, Ph.D.: Prepared statement..........................    23
Mr. Ivan Vejvoda: Prepared statement.............................    31

                                APPENDIX

Hearing notice...................................................    46
Hearing minutes..................................................    47
The Honorable Lois Frankel, a Representative in Congress from the 
  State of Florida: Prepared statement...........................    48
  
  
 
                      U.S. POLICY TOWARD NATIONAL 
                      SELF-DETERMINATION MOVEMENTS

                              ----------                              


                        TUESDAY, MARCH 15, 2016

                       House of Representatives,

         Subcommittee on Europe, Eurasia, and Emerging Threats,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:44 p.m., in 
room 2200, Rayburn House Office Building, Hon. Dana Rohrabacher 
(chairman of the subcommittee) presiding.
    Mr. Rohrabacher. Good afternoon. This hearing of the 
European Subcommittee is called to order. Today we will discuss 
a topic that is dear to me, but quite often overlooked by too 
many policy experts, and that is, national self-determination, 
and its impact on what is going on in the world today. There 
have been many examples since the Second World War of self-
determination movements, galvanizing local support, challenging 
their central authorities, and, of course, giving our State 
Department headaches in the process.
    As advocates of democratic government and human rights, we 
cannot help but have sympathy with the grievances of many of 
these self-determination movements. They are often based on 
legitimate complaints, and aspire to change a political 
structure that they quite often had no voice in creating. Yet, 
these groups can be cooperated by hostile outside forces, and 
used violently against otherwise friendly governments.
    The foreign policy of our government, perhaps for no better 
reason than for simplicity's sake, has opted to treat questions 
of self-determination as internal matters and existing borders 
as unchangeable. The word ``stability'' has been invoked more 
times than I can count.
    During today's hearing, we will discuss another point of 
view, that self-determination movements represent a dynamic 
force in the history of the world that can be channeled into 
peaceful and legitimate political change, but we should not 
see--because of the fear that that is not the way it is--we 
should not see as tramping them down and suppressing them as 
our solution to that type of dynamic that is being created in a 
self-determination movement.
    Border and other types of change, border change, and the 
creation of new states, these are things that will result in 
this type of dynamic, the self-determination that we see 
popping up in various parts of the world, but what is wrong 
with new governments? What is wrong with new states? What is 
wrong with changing borders that have been created by monarchs 
back two centuries ago?
    And after all, our country is a product of the self-
determination movement. Some worry that self-determination 
movements will have a domino effect of changes and challenges 
to the existing world order that will lead to chaos, and I have 
no such fears. And acknowledging these movements and state the 
principles by which they should seek progress, by doing that, 
we affirm that there is value in the existing global standards, 
and we can demonstrate change within those global standards.
    Alternatively, by ignoring these groups who are looking for 
their own self-identity and united by a national identity, even 
though it is subjugated by the boundaries of a country that is 
dominated by other people, by ignoring them, we push these 
ethnic patriots toward violence and insurrection.
    In our recent history, we can see several examples where 
self-determination and finding peace were intermingled. We can 
see this in Kosovo's experience breaking away from Serbia. Had 
that been an election all along and there had been sort of a 
relationship established between Kosovo and Serbia, a lot of 
violence and people on both sides would have been better off. 
We have seen that with the splitup of the Czechs and the 
Slovaks, something that needed to happen. It happened, and it 
has been good for both of those people. We can see how 
Pakistan's refusal to recognize the rights of the Baloch people 
creates more conflict and more suffering.
    In 2014, the referendum in Scotland allowed the people 
there to act in a peaceful way to express their wishes as to 
what their future would be, or where their sovereignty would be 
placed. And that was a strong example of how democracy can 
work.
    I am watching now in the cases, for example, in Catalonia, 
to see if a peaceful and mutually agreeable process can be made 
to work there that satisfies, yes, the rights of self-
determination and, yes, a Democratic and free government. A 
change there in Catalonia, through politics and ballots, is 
much preferable than violence or terrorism. In many cases, the 
continued stubbornness of a ruling ethnic majority fuels 
frustrations which leads not just to instability, but also to 
chaos, to hatred, and long-term hatred and violence.
    We need to look at this powerful concept, self-
determination. What role is it playing in our world today? What 
role is it playing in the various regions of the world? Whether 
it is in the Balkans, or whether it is in Spain.
    We thank you, our witnesses, for appearing today, and 
without objection, all the members will have 5 legislative days 
to submit any additional written questions or extraneous 
materials for the record. And I now turn to our ranking member 
for his opening remarks, Mr. Meeks.
    Mr. Meeks. Thank you, Mr. Chairman. Thank you for your 
remarks and organizing today's subcommittee hearing on U.S. 
policy toward self-determination, a theoretical topic with 
practical relevance for current affairs.
    You might recall, during our last hearing on the domestic 
situation in Turkey, we had an interesting discussion on the 
Kurdish question, and their future in the region. Whatever the 
resolution to this timely question, the effects will 
reverberate throughout the Middle East and Europe. I look 
forward to examining some of the examples of self-determination 
movements, while keeping in mind--I think we have to still as 
we look at these things--international law and our foreign 
policy objectives.
    Across the world, we see desperate groups clamoring for a 
voice, space, and basic human rights from their governments. In 
a world where global structures are based on the relationships 
between nation states and people, sometimes that can be 
overlooked. This poses the essential question: What are the 
nation states' responsibilities and obligations to each of its 
citizens?
    In a best-case scenario, disparaged people work with the 
national government to negotiate special rights for even 
referenda on their relationship with the capitals. In this 
regard, I think of the upcoming U.K. and Scottish referenda. On 
the opposite end of the spectrum, the struggle for self-
determination can also lead to conflict, confusion, and even 
intervention. And in this category, I think of Kosovo and 
Chechnya, two of Eurasia's most tumultuous examples.
    However, questions of self-determination in my opinion are 
never just black and white. And as outsiders, we must exercise 
extreme caution when considering the best policy toward these 
movements. One would hope that the reconciliation processes are 
consistently peaceful and democratic. Unfortunately, we have 
seen, in many cases, that peaceful reconciliation is not always 
the ultimate outcome. Even here in the United States, we are 
ironing out questions of sovereignty when discussing issues 
such as Native American rights, or our relationship with Puerto 
Rico.
    What rights to self-governance should the people have here 
in the United States, the people of Puerto Rico? The Native 
Americans? The Virgin Islands? What responsibility does the 
United States Government have toward them?
    There is no simple answer to these questions, but, 
nevertheless, they lie at the heart of how one defines 
democracy and nation states.
    As these tensions come to a head in Europe, governments and 
legislatures across the globe must address the universal 
conundrum of self-determination. Recognizing the delicacy and 
the complexity of self-determination, what I think I am going 
to do at this juncture, and at this hearing, I am going to 
leave it to the expert panelists, so that to listen to you and 
to hear your thoughts and for you to address this sensitive 
issue. And I think that you can do it from both an academic and 
policy perspective and historic perspective. So for me, you 
know, this is really going to be listening and questions on the 
run, but I am looking forward to the dialogue and conversation 
and listening to the experts and your opinion. This is a 
complex issue, no question.
    Mr. Rohrabacher. Thank you very much, Mr. Meeks. And, Mr. 
Weber, do you have anything to say for an opening statement?
    Mr. Weber. Mine is real short about self-determination. I 
think the people ought to decide. Let's go.
    Mr. Rohrabacher. It is very risky to ask a guy from Texas 
to talk about self-determination.
    Mr. Meeks. I started to say that.
    Mr. Weber. After all, my wife would not let me put on my 
pickup truck bumper that ``secede'' bumper sticker.
    Mr. Rohrabacher. Got it. All right. We have our witnesses 
today. I want to thank them for being here. I would suggest if 
you could keep your testimony to 5 minutes, and your written 
testimony will be placed into the record, and then we can have 
some dialogue on this particular issue.
    First of all, we have Dr. Paul Williams, who is the co-
founder and president of Public International Law and Policy 
Group, a pro bono firm providing legal assistance to 
governments involved in peace negotiations or post-conflict 
situations. Dr. Williams has been involved in over 20 self-
determination negotiations, working with either the parent 
state, or the self-determination movement. Dr. Williams has 
previously served in the Office of Legal Adviser at the 
Department of State. He holds a Ph.D. From Cambridge University 
and a J.D. From Stanford Law School.
    Next, we have Dr. Jason Sorens. He is a lecturer of 
Government at Dartmouth College. He is an expert on 
secessionism and an author of a book on that topic, which was 
published in 2012. He has taught at Yale and the New York 
School, and has earned his doctorate from Yale University. We 
have with us also Ivan Vejvoda, a senior vice president for 
programs at the German Marshall Fund here in Washington, D.C. 
From 2010 to 2013, he was executive director of that 
organization's Balkan Trust for Democracy Program, so this 
really gives him an expertise for this discussion today. Before 
that, he was an adviser to the Serbian Government, and a long-
time advocate of democracy in the region.
    Thank you all for attending and to enlighten us with your 
knowledge and your experience. And, Dr. Williams, you may 
proceed.

STATEMENT OF PAUL R. WILLIAMS, PH.D., PRESIDENT AND CO-FOUNDER, 
           PUBLIC INTERNATIONAL LAW AND POLICY GROUP

    Mr. Williams. Good afternoon, and thank you, Chairman 
Rohrabacher, Ranking Member Meeks, and Congressman Weber, for 
inviting me here this afternoon to testify. It is a real honor. 
The committee has noted that with the growth of Democratic 
governance in Europe, questions of national self-determination 
have become increasingly prevalent. In response, the U.S. 
policy has generally emphasized stability and the status quo of 
existing borders. As the chairman noted, the committee has 
asked for assistance in examining whether long-term peace and 
stability might better be served in supporting national self-
determination. The answer is yes, under a framework of earned 
sovereignty. In my remarks, I will briefly highlight the risks 
posed by the inherent conflict between status quo sovereignty 
and national self-determination in Europe and in Eurasia. I 
will then discuss the conflict resolution approach of earned 
sovereignty as a means for reducing those risks and as a 
pathway to heightened autonomy or independence. I will be 
summarizing my written statement, which goes into the approach 
of earned sovereignty in more detail.
    National self-determination is a global phenomenon that 
tugs at the strings of a world order, as we know it, based on 
sovereignty and territorial integrity. National self-
determination conflicts are numerous, and they are widespread. 
Conservatively estimating, there are over 60 national self-
determination conflicts around the globe, with over a dozen in 
Europe, and they afflict some of our most intense and strategic 
allies: United Kingdom, France, Spain, Armenia, Georgia, 
Ukraine.
    Since 1990, half of the world's conflicts, hot conflicts, 
involve questions of national self-determination. As a 
consequence of the myopic approach of sovereignty, sovereignty, 
sovereignty, borders, borders, borders, these conflicts are 
deadly, they are destabilizing, and they are durable.
    They are deadly. Since 1945, over 20 million individuals 
have died as a result of conflicts associated with national 
self-determination. They are deadly, in part, because they 
require the consent of the parent state as a legal fiction, so 
to speak. South Sudan received the consent of North Sudan for a 
peace agreement, after 2 million people were killed in that 
conflict.
    They are durable. Only one-third of national sovereignty 
conflicts have been resolved in the past half century. The 
average length of a sovereignty-based conflict is 30 years, 
twice the length of the duration of a regular conflict. They 
are destabilizing, as the chairman mentioned in his remarks, 
creating large refugee populations, war economies, and 
sometimes giving rise to opportunistic terrorists.
    One-third of the designated foreign terrorist organizations 
listed by the Department of Treasury have found their way to 
associate in areas where there are self-determination 
conflicts. This is the case because there is no globally 
accepted approach to dealing with national self-determination.
    There is a gridlock between sovereignty first, promoted by 
states, and self-determination first, promoted by many these 
national self-determination movements. Neither one of those 
approaches promotes stability. Europe, despite its economic 
progress, is no exception. Europe, in fact, has avoided--
Western Europe, in fact, has avoided creating a policy on 
national self-determination. The response to the Scottish 
referendum and the current response to Catalonia is simply 
incoherent and unhelpful.
    The European Union has refused to answer the question of 
whether new states created out of member states are entitled to 
membership automatically, or whether they may have a veto-free 
path to membership. They have failed to answer the question of 
citizenship, or of a common currency. Europe is stuck in a very 
difficult conundrum. States like Belgium, Italy, France, 
Romania, Spain, Cyprus, are all opposed to recognizing new 
states within the European Union, because they suffer from 
their own self-determination movements. Yet, members of the 
European Union have recognized over 3 dozen new states in the 
last 20 years. So how can you recognize states outside of the 
European Union and not recognize those that seek a democratic 
path to independence or heightened autonomy within the European 
Union?
    As the chairman noted, there have been a number of 
successes recently. These successes in Serbia, Montenegro, East 
Timor, Northern Ireland, Bougainville, Bosnia, Kosovo, the 
Sudan, and proposed agreements in Western Sahara, provide a 
path for a basis for what I called earned sovereignty. There 
are three essential elements of an earned sovereignty approach, 
and three optional elements. The idea, however, is to handcraft 
a multistage solution to each national self-determination 
conflict based, as Congressman Weber pointed out, on the will 
of the people.
    The first three options would be: Shared sovereignty, 
either between the parent state and the sub-state entity, or, 
in cases like Kosovo, between the sub-state entity and the 
international community. Institution building. Oftentimes, new 
states fail or are afraid to have new states because they don't 
have the requisite institutions. You are a sub-state entity on 
Monday, you are a republic. On Tuesday, you are an independent 
state. You don't have the institutions. You are being set up 
for failure. And, a set date for determination of final status. 
In Serbia and Montenegro, it was 3 years. In Bougainville, it 
is window of 10 to 14 years.
    There are three additional elements which can be added at 
will: Phased sovereignty. There is no reason a new state must 
assume all of the rights and obligations on the very first day. 
These rights and obligations can be phased in as stability 
requires. They can be conditioned. Sovereignty can be 
conditioned on human rights protection, minority rights 
protection, and democratic development, and sovereignty can 
even be constrained. Restrictions on territorial association, 
or other destabilizing activities, can be constraints that can 
be put on a new state.
    To conclude, to promote long-term peace and stability, the 
United States should shift from a policy that solely emphasizes 
stability in the status quo of existing borders to one of 
earned sovereignty. This allows greater flexibility in managing 
the aspirations of national self-determination movements, and 
reduces the potential for violence and political and economic 
instability. Thank you.
    [The prepared statement of Mr. Williams follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
   
                              ----------                              

    Mr. Rohrabacher. Thank you very much. We will discuss that. 
Mr. Sorens.

   STATEMENT OF JASON SORENS, PH.D., LECTURER, DEPARTMENT OF 
                 GOVERNMENT, DARTMOUTH COLLEGE

    Mr. Sorens. Thank you, Mr. Chairman, and members of the 
committee. It is a pleasure to testify for you today, and I 
will be summarizing my written remarks.
    National self-determination movements seek greater self-
government for a national minority, typically, including the 
right to vote on forming a new independent state. Like other 
states, the U.S. Government faces decisions about whether to 
recognize declarations of independence, to enter into 
diplomatic relations with new states, and to engage in 
diplomacy with other states about self-determination movements 
with their borders.
    In my testimony, I will first describe the current state of 
self-determination movements around the world, then summarize 
what scholars have learned about the relationship between self-
determination claims and violence. I will conclude by assessing 
the validity of claims advocating the creation of new states or 
changes to national borders.
    The current state of self-determination movements. Self-
determination movements generally take one of two forms: 
Political parties and armed groups. In Western liberal 
democracies secessionist political parties are common. Armed 
self-determination movements are typically found in a 
developing world, and you can see this in figure 1 of the 
written testimony.
    Developing countries usually forbid self-determination 
movements from organizing as political parties. Western liberal 
democracies typically allow secessionist parties to organize, 
but not all of them allow secession. Britain, Canada, Belgium, 
and Denmark are examples of countries that have allowed some 
sort of legal path to independence under some circumstances for 
at least some part of their country. On the other side of the 
spectrum, you have got France, Spain, and Italy, which have 
constitutions defining their countries as indivisible, thus 
ruling out self-determination.
    Majority support for independence in a population is rare. 
In all the high-income democracies of Europe, North America, 
and the Pacific Rim, there is only one region in which a party 
or group of parties advocating independence in the short run 
has actually won an absolute majority of votes, and that is 
Scotland, and that happened even before the referendum of 2014, 
which, of course, was lost for the independence side.
    Using data from the Minorities At Risk Project, I looked at 
ethnic minorities around the world, and I found that only 38 
percent of them have any secessionist organization of any kind, 
no matter how small.
    The causes of self-determination conflicts. Popular demand 
for independence comes from a combination of a distinctive 
cultural identity, territorial coherence, and either political 
or economic benefits from independence. Having just one of 
those elements is not enough. You need all of them. That is why 
the vast majority of minority nations around the world don't 
have secessionist movements.
    One worry about allowing secessionist movements is the 
problem of contagion. But secessionism, according to the best 
research, does not appear to be contagious across national 
borders. It does have a tendency to spread within a country, 
which is why central governments often try to crack down on the 
first movement that emerges. Because there is usually no legal 
framework for regulating secession, secessionism is strongly 
statistically associated with violent conflict.
    In general, separatist civil wars last longer than other 
kinds of wars, implying that the warring parties cannot find 
negotiated settlements even when the conflicts are stalemated. 
I find in my own research that providing a legal path to 
independence is associated with less ethno nationalist 
rebellion. The United Kingdom, Canada, Denmark, and Belgium 
have had much less secessionist violence than France, Italy and 
Spain. Clauses permitting secession were also crucial to peace 
agreements ending the conflicts in Northern Ireland, South 
Sudan, and Bougainville, part of Papua New Guinea. The European 
Union's Treaty of Lisbon also explicitly guarantees member 
states a right to withdraw from that union.
    A legal path to independence can promote peace by 
constraining secessionists in central governments to pursue 
their aims through electoral and legislative means. Central 
governments often cannot commit to respecting a negotiated 
regional autonomy compromise without also conceding a right to 
secede. The South Sudanese and Bougainville secessionists would 
probably not have agreed to any peace deal without a referendum 
guarantee.
    If every country recognized some sort of right to national 
self-determination, only a few would exercise such a right. 
Moreover, the overall level of global violence would likely 
decline by replacing intrastate conflicts with a smaller number 
of interstate conflicts. Intrastate conflicts are far more 
common that interstate conflicts, and you can see that in 
figure 2 of the written testimony. Civil conflicts have killed 
seven times more people than interstate conflicts since World 
War II. They last much longer than interstate wars, and civil 
wars are more common in bigger countries.
    So all these findings suggest that reducing the average 
size of states over the long run and increasing the number of 
independent states would actually reduce deaths from violent 
conflict.
    There are good reasons for the U.S. Government to avoid 
assertively internationalizing other countries' self-
determination conflicts which can look like meddling in other 
countries' internal affairs. Nevertheless, once a declaration 
of independence is issued, the U.S. Government has no choice 
but to respond. In such an event, the U.S. Government might 
wish to consider not only the interests of the host state, but 
also the interests of the seceding state and the effect of 
secession on regional stability. On average, replacing a state-
to-nation relationship with a state-to-state relationship 
reduces violence. Thank you.
    [The prepared statement of Mr. Sorens follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
     
                              ----------                              

    Mr. Rohrabacher. Thank you very much. You may proceed.

   STATEMENT OF MR. IVAN VEJVODA, SENIOR VICE PRESIDENT FOR 
      PROGRAMS, GERMAN MARSHALL FUND OF THE UNITED STATES

    Mr. Vejvoda. Thank you, Chairman Rohrabacher, Ranking 
Member Meeks, and Congressman Weber. It is a real honor to be 
here today. I am not a specialist on self-determination. As I 
said to one of our co-panelists, I lived it, through the 
breakdown of the country I was born into, called Yugoslavia 
that no longer exists, and that today constitutes seven 
countries, one of the 36 that came out of what happened after 
the fall of the Berlin Wall. I think much has been said. As a 
former Professor of Political Science, I taught Transitions to 
Democracy, and, obviously, this was a key part of what happened 
in former Communist Europe as countries sought to seek their 
path toward democracy and a stable future. You, yourself, 
alluded to the Czechoslovak-Velvet divorce, which was led by 
the elites, and a very peaceful and successful example.
    I would like to stress, first of all, when we talk about 
Europe, the soothing role of the European Union. The existence 
of a community of nations that after World War II decided that 
it wasn't really good to go to war every 20 years, and to seek 
institutions that would be shock absorbers to any friction or 
conflict that might appear, and it has not been said without 
reason that the European Union is probably the most successful 
peace project that the world has seen. And we see that effect 
with all the travails that Europe is confronting today. And 
Spain has been mentioned as one of them, the Scottish 
referendum, the pending Brexit on June 23, that is a sort of 
self-determination.
    Does the United Kingdom want to stay part of a family that 
it chose to join in 1973, and now maybe wants to leave? And 
what would be the ripple effects that it would have on a 
country like Ireland, for example, or the contagion effect that 
was spoken? But as we see, it is mostly a domestic issue.
    No one is immune to this issue, whether a Democratic policy 
or a non-Democratic policy. And I think Northern Ireland is an 
example. It took the mediation of Senator George Mitchell to 
achieve the Good Friday Agreement in 1998. But we saw then that 
Richard Haass, Dr. Richard Haass, and Dr. Meghan O'Sullivan had 
to be expedited to Northern Ireland in 2014 to try and put the 
final stitches on that. And after 3 or 4 months and a final 
round of 15 hours of negotiation, they did not achieve that 
final stitch on the agreement.
    What I want to say by that is there are no ancient hatreds. 
There are no prejudices. And thus, we have to look, as several 
have said already, at each specific situation that is grounded 
in historical cultural identity issues.
    And so, the fact that we have the European Union has been 
in this case between Serbia and Kosovo a very important 
element. It gives a framework in which countries that want to 
join a bigger family, by choice, voluntarily, of their own 
account know that it is only by a peaceful and democratic way 
that they must resolve these issues.
    There is nothing easy in a compromise. That is what Bernard 
Crick has called the high price of peace. Maximos' positions 
have to be abandoned and coming to a middle where no one will 
be completely happy with the result, but when they reach the 
compromise, knowing that it can create stability and lasting 
peace. And that is probably the most difficult thing.
    As you mentioned, Chairman, I was a Senior Foreign Policy 
Adviser to Prime Minister Zoran Djindjic who sought to solve 
the Kosovo issue as expeditiously as he could by advocating a 
possible direct negotiation with Hashim Thaci then, in the 
beginning of 2003, where the north of Kosovo would be able to, 
itself, have self-determination and possibly independence, and 
at the same moment, recognizing the full independence of 
Kosovoand, as you said, Serbia needed to put this issue behind 
itself as quickly as possible. The rest is history. He was 
assassinated, and then we went into a protracted period, and 
now the mediation of the European Union is having that soothing 
effect as we go forward, and I believe it will be achieved. But 
as colleagues have said, these processes take a very long time.
    I would just like to, finally, make a point about the 
frozen conflicts, that countries such as Russia use a frozen 
conflict to keep leverage on international politics, and to 
allow or disallow a solution. The frozen conflicts that have 
been alluded to in Transnistria, and Abkhazia, and South 
Ossetia, Nagorno-Karabakh, are ones that have gone maybe on too 
long, and maybe we would like to see more leadership from the 
European Union in seeking a resolution to these conflicts. 
Thank you.
    [The prepared statement of Mr. Vejvoda follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
                              ----------                              

    Mr. Rohrabacher. Thank you all very much for your 
testimony. I think today we are launching a dialogue on an 
issue that has just been ignored, although it has had dramatic 
impact on our world, but they don't want us to talk about it 
because to set any new standard on this frightens people. It 
just frightens us all that chaos is going to break out if we 
have a new international concept of what is right and wrong in 
the way to proceed with these issues of sovereignty, and the 
issues of self-determination and freedom and democracy, et 
cetera.
    Let me note that we--first of all, the first thing that got 
me involved in this issue was the fact that when I was first 
elected to Congress, the issue was whether or not Serbia was 
going to permit Kosovo to be an independent entity, or, at that 
time, by the way, I might note that Serbia also was claiming 
that they had to be the government of Croatia and the other 
countries as well.
    Let's just put this in perspective. The Serbians, however, 
felt that because they had recognized national heritage 
treasures within Kosovo, that that meant that they had a right 
to keep that part of their jurisdiction under their 
jurisdiction, even though the majority of people, clearly, the 
majority of people, did not want to be part of Serbia. And that 
brought that home to me, and that was a, I think had, and I 
think I mentioned this in the opening remarks, had we basically 
had a situation where the Serbs at that time would have said, 
okay, you are going to be independent, but we are going to have 
a free trade zone among all these and open borders, and you 
would have had basically the same situation as a sovereign 
country, but not having people feel that they were being 
subjugated to one particular area of that country.
    Let's get back to what my friend from Texas said earlier. 
Are we really talking about the majority has a right to 
determine what the government is in that part, in that area of 
any country, or anyplace in the world where they hold a 
majority?
    And, by the way, let me preface it by saying we are not 
talking about little enclaves of people spread throughout a 
country. We are talking about someplace on the periphery of a 
country. Do those people have a right, whether it is in 
Catalonia, or whether it is in Kosovo or wherever it is, or how 
about Biafra? Do these people or a majority of people in that 
area say they want to be independent and have their own country 
from the country that now governs them with a majority of a 
different type of people in another part of the country, is 
that their right to have their government? Because the 
majority, does the majority decide? And just real quickly, we 
will go down the list. Dr. Williams.
    Mr. Williams. Yes. The international law is seldom helpful 
in these instances, but in your particular question it is 
helpful. There are two answers: One, the International Court of 
Justice has said that an entity where a majority of the people 
decide that they would like to be independent, has a right to 
declare independence. It left unaddressed the question of 
whether or not there was an obligation of the international 
community to recognize them, but at least it gets you halfway 
there. The other way in which international law is helpful is 
it answers your question about who these people are that you 
need a majority determination from. It is pretty clear that 
there has to be a political identity, cultural identity, a 
history of association.
    A lot of the groups that you have been speaking about, as 
well the Armenians, and Nagorno-Karabakhs, the Catalonians, the 
Kosovars, they have that identity as a people, and you meld 
that with modern democratic norms, modern human rights norms, 
and they do have a right to seek independence, and then it has 
to be managed in a way that it doesn't destabilize. But the 
fear of destabilization is not a reason to deny them their 
democratic right to determine their own political future.
    Mr. Rohrabacher. When you say ``democratic right,'' are we 
just talking about what international law as it seems to be 
played out today, or are we talking about a theory of natural 
rights that our Founding Fathers----
    Mr. Williams. I think it is more the theory of 
international. As an international lawyer, I can sort of put 
international law aside a little and not feel too guilty, but 
it is the natural law. It is the democratic norms and 
principles that drive this country and, quite frankly, that 
drive the self-determination movements around the globe, that 
willingness to determine your own political future, which 
international laws reflects, but that is not where the right 
comes from. It comes from this national right.
    Mr. Rohrabacher. I think that started within the course of 
human events. But Dr. Sorens.
    Mr. Sorens. Yes. I mean, you could take it back to John 
Locke's second treatise, right, that influenced our Declaration 
of Independence, the idea that government is legitimate only 
when it enjoys the consent of the governed. If you take that 
view, then if the majority of people in a territory prefer a 
different government to the one that is currently ruling them, 
then letting them have that government increases the number of 
people living under a government that is legitimate to them.
    So that seems like, on balance, a reason to allow them to 
secede. But there are some other considerations we should bear 
in mind. So if a majority wants to secede in order to oppress a 
minority within its borders, that would be a reason not to let 
them secede, even if they get majority support. In some 
situations, you could do even better by allowing some 
negotiation over the borders of a new state. I think Kosovo is 
a good example here. The vast majority of people living in 
Kosovo wanted to become independent, but there was a small 
minority of ethnic Serbs that were very much opposed to that.
    If you could have had a situation where you negotiated 
Kosovo independence recognized by Serbia and a small part of 
Kosovo returned to Serbia if its inhabitants so desired, then, 
I think, things would have turned out better for Kosovo. Right 
now they are struggling to get recognized by other countries 
that don't want to set a precedent. Spain is one country that 
hasn't recognized Kosovo, at least the last time I checked.
    That has made it hard for Kosovo to join international 
organizations. So sometimes we can do better than simply saying 
whatever the majority decides goes. It is a good starting 
point, but we might want to negotiate from that starting point 
to try to protect the rights of everybody involved.
    Mr. Rohrabacher. Mr. Vejvoda.
    Mr. Vejvoda. Just dovetailing on that, I mean, one could 
use also Tocqueville's expression of the tyranny of the 
majority which he used in a political sense, but it applies 
here. You know, if there is this recognition that you want to 
be independent, but as Dr. Sorens just said, but there are 
minorities within majorities, you know, there was this half-
flippant remark as all this started to unravel which said, Why 
should I be a minority in your country when you can be a 
minority in mine? And I think we have exactly seen that in 
several of these cases.
    I think, you know, it is really about the democratic 
legitimacy, about the consent of the government, and whether 
people feel that those who govern them really are doing a 
rather good, or a rather bad job. I would take the example of 
Quebec in 1995, when the Canadians and the Quebecers went for 
the vote. The difference in that referendum was stunning. It 
was 1.16 percent. And people went quietly home and accepted the 
result that Quebec had voted to stay in Canada.
    That doesn't mean that they won't do it again or the Scots 
won't do it again. I think it is the general atmosphere and the 
policy. We talked about many of the elements that determine 
this default position that it is about state sovereignty, and 
everybody wants to be on the side of let's not rock the boat. 
But we see in cases like these, it does create heightened 
emotions. But if people understand the rules of the game, they 
will go home, even if there is a 1-percent difference.
    Mr. Rohrabacher. Thank you. And I am going to yield to my 
ranking member in a moment, but let me just note that the 
Czechs and the Slovaks managed to pull this off very quickly, 
and we had with us President Klaus, who told us that the reason 
he was successful in doing that with so few bumps and so little 
suffering in both sides and the reorganizing the economies, et 
cetera, was that he did it very quickly, very, very quickly, 
and everybody recognized it very, very quickly. And unlike what 
happened where we determined that the people in Kosovo, by a 
vast majority, did not want to be a part of Serbia, yes, we 
helped them free themselves by violence, force and violence. 
We, in fact, bombed Serbia in order to prevent their armed 
suppression of the Kosovars' self-determination. But then, once 
we declared Kosovo, and it was recognized now as independent, 
we basically strung it out. They still are not really a fully 
recognized government. And for self-determination to work, it 
can't be just philosophically correct, but we have got to have 
the courage and that principle of consent of the governed, that 
we act as a people and a government immediately on it, rather 
than letting something string out, which will then just keep 
the issue--it is just like tearing the scab off the wound every 
other day.
    So with that said, also perhaps we need an OSCE mandate 
that they would now be responsible, not only for observing 
elections in developing countries, or countries where there is 
conflicts, but instead, also, to be the entity that goes in to 
ensure that a vote on self-determination is a legitimate and 
fair vote. That would be something--would be something we could 
discuss as time goes on.
    And finally, one last point for, in terms of the United 
States. I have quite often, I actually take my own tweets; I 
tweet it out and sometimes right before I go to bed I will have 
a lot of fun debating people all over the world. You would be 
surprised. All these people say what about--because I happen to 
believe that the Baloch in Pakistan have a right to their self-
determination. And these Indians say what about Kashmir? What 
about Kashmir? Yeah, I think they do, too. Yeah, if you believe 
in a principle, it is right for both peoples. And it was 
especially true when they say what about Texas? I kid you not. 
I get this. And I always say--or San Diego.
    One of the reasons why I believe that we have to control 
our borders to make sure that the people coming into this 
country are regulated to the point that they are absorbed into 
our society, is that we don't end up in areas of our country 
where a vast majority of the people, who come from someplace 
else, now have a different point of view as to what our country 
should be, and live on the periphery and maybe want to be part 
of Mexico.
    But I will say that if we permit people into our country 
and permit them here legally, they have rights just like we do. 
That is why we have to control our borders. And if the majority 
of people in San Diego end up being people who would prefer 
that they live in Mexico, I'm sorry, they have a right to vote 
on it, and it is adios, San Diego.
    And this is, of course, a surprise that people are tweeting 
me on this. But I do believe that our Founding Fathers actually 
had something special that they tapped into when they talked 
about rights that are granted. You call them natural law. They 
are granted by God. These are things that I believe they have 
universal application, and that we shouldn't be at all hesitant 
or apologetic about trying to use that as our standard on how 
we move forward.
    Mr. Meeks, you may proceed.
    Mr. Meeks. Thank you, Mr. Chairman. And as I said, there is 
a lot of theoretical questions I think also, and I don't know 
if there is one box that fits all. I mean, sitting here and 
listening and going back and forth, if there was one principle, 
we probably wouldn't be here today, because we would be two 
different countries, the North and the South, would not be one 
unit. And people died in the United States in a Civil War, 
because half the country wanted to be governed a different way 
than the other half of the country.
    And, so, if we just had one principle, then the confederacy 
should have been allowed to leave, and we would not be here 
today as the United States of America, wouldn't be. And, so, 
there are ramifications all over the world to just say, We are 
going to let one little minority group do a little--I can just 
recall, from my own lifetime, we had it in the African American 
community, back during the civil rights struggle, where some 
would say, Hey, we didn't want to be part of the United States 
anymore. We wanted our own little state. We all come together 
because we were mostly one area and said let us create our own 
little country.
    So how do you define a people, number one? Because people 
of the United States are citizens of the United States, no 
matter what your background, your ethnicity, et cetera. So what 
are the people? I just look at another. You can go to Rwanda 
where the Tutsis and the Hutus, they are still one country. But 
it would be easy to say separate and make two. And who, then, 
recognizes what? And that is the reason why we do have some of 
our international organizations, because what is important 
about being a country to one degree is being recognized by 
another. And then coming together where you do have the lack of 
democracy and/or ethnic cleansing where there is a majority 
that is just going--so that is when we are supposed to come 
together in a unified humanitarian caucus and say we are not 
going to allow this to happen in certain areas where that is 
happening. That is part of what you, and I think that is part 
of, and then protect one another, that is part of what NATO was 
all about. So it is not easy. It is not just as simple as 
saying the people will decide because it depends upon who the 
people are, right? And I can see some context going both ways. 
I don't know.
    So, Mr. Vejvoda, you lived it in the former Yugoslavia and 
Kosovar self-determination movement, and the fight now for 
Kosovo to try to get--what do you see? What do you envision? 
And are there any lessons that we can learn from the Kosovo 
experience since you lived it?
    Mr. Vejvoda. Let me start by quoting Isaiah Berlin, whom I 
quote at the end of the written testimony, who tried to give a 
definition of what good government was, and he put it very 
simply. He said: ``To avoid the extremes of suffering.'' I 
think that is exactly the opposite of what happened in my 
country. Someone called Slobodan Milosevic created the extremes 
of suffering with other leaders. He wasn't the only culprit.
    And I think, obviously, when I was asked, you know, why my 
country disappeared in front of me, big lesson for a social 
scientist like myself, that the evil of history can always 
return, and we have to be vigilant to these kinds of populists 
and other movements, leaders that offer so-called simple snake-
oil solutions to very complex problems. The answer was simple. 
We were not a democracy. We were a Communist system, and we 
didn't have institutions, and that is why I talk about the 
European Union as having, up until today, created at least 
institutions that are what democratic institutions are supposed 
to be: A framework where you resolve conflict. A conflict will 
remain with us, as Machiavelli said, forever. And it is a 
question of how we deal with it, and what are the mechanisms by 
which we resolve them?
    So the experience one draws from the case of the former 
Yugoslavia, it is exactly that. It is the need to move out of 
the authoritarian dictatorial regime, and to move toward the 
creation of stabilization of institutions. That is why Dr. 
Williams' earned sovereignty, I think, is a very important one, 
because he gives all the elements of what is needed.
    Preparing for this, I looked at the recent self-
determination referenda that we talked about, you look at 
Eritrea, you look at South Sudan, you look at East Timor, they 
all went through processes of a diverse kind. I asked the 
question, who is caring for them the day after? There was an 
NPR story last week on South Sudan, the reporter said short and 
sad 5 years. And I think we need to be cognizant. That is why 
the earned sovereignty is so important. People need to be there 
the day after, not just in the lead-up to that moment where the 
people decide, and I think that is key and that is maybe the 
biggest lesson.
    Mr. Rohrabacher. Mr. Weber.
    Mr. Weber. Were you through, Mr. Meeks?
    Mr. Meeks. Yes, I know we got votes coming up.
    Mr. Weber. There they are. Gosh, I don't know where to 
start, guys. You all have brought up so many interesting 
concepts. One of you said that--I think it was you, Dr. 
Sorens--is that right--that self-determination, there is two 
paths, and I basically understand that to be the ballot box or 
military, militarily. You said there is a contagion, but that 
contagion doesn't usually cross borders. What about the Arab 
Spring?
    Mr. Sorens. So democratic contagion can definitely go 
across borders. So we saw that back, as far as Europe 1848. But 
secessionism is fundamentally different because it only happens 
when a particular group has particular grievances or fears 
about the situation it is in. So we don't see this kind of 
thing, even if you look at----
    Mr. Weber. So you don't equate secessionism with 
democratization necessarily----
    Mr. Sorens. I think they are fundamentally different 
processes. And any time, even if we look at Eastern Europe, it 
doesn't look as if people are looking at Yugoslavia and saying, 
oh, we need to do that.
    Mr. Weber. Let me interrupt you for a minute because we 
have to go to votes. Secession doesn't equate to 
democratization, but yet, if self-determination, somebody is 
tired of the old ruling order, the avant garde, call it 
whatever you want, and they want self-determination, isn't that 
democracy?
    Mr. Sorens. You could say that it----
    Mr. Weber. So secession is a means to an end of democracy?
    Mr. Sorens. It can be. It could be that the motivating 
principle of democracy might be a reason to recognize secession 
happening. So someone isn't trying to secede normally in order 
to get democracy. It is normally you are trying to secede in 
order to get out from under the thumb of a regime that you feel 
is alien or hostile to your interests. So democracy might be a 
reason for us to say, okay, the majority has decided we are 
going to recognize you, but that is not what is driving these 
secessionist movements to happen.
    Mr. Weber. You also said that if every country recognized 
the people's right to self-determination or secession, I guess, 
then few would exercise it, which I thought was interesting. 
Why do you say that?
    Mr. Sorens. It is. It is surprising. Most people say, one 
of the first objections they have to this is, oh, you are going 
to get 10,000 new states, and it is just going to be 
unmanageable, but all the evidence suggests that even in the 
developing world, most people fear big changes to the status 
quo. So, you only get strong support for independence when 
there is a history of discrimination or violence or other 
things that make people fearful to stay in that arrangement. 
Even India, I looked at data in India, every Indian state, 
trying to figure out the proportion that wanted to secede, the 
highest was in Kashmir, and it is only about 20 percent.
    Mr. Weber. Let me jump over to your comments about Italy. 
You said the Italy constitution defines the country as 
indivisible. We would argue that our Pledge of Allegiance has 
that same phrase basically in it, but then you said the 
constitution had the phrase--it defined, rather, the country as 
indivisible, thus ruling out self-determination. But, in point 
of fact, hasn't the majority of people who voted for that 
constitution self-determined that they wanted to make the 
statement that they are indivisible?
    Mr. Sorens. It is sort of a philosophical question, but you 
could wonder, do the majority of Italian people have the right 
to decide for, say, Sardinians? Well, if Sardinians don't want 
that----
    Mr. Weber. I would argue that they do until the 
constitution is changed.
    Mr. Sorens. We could wonder what the best constitutional 
form should be, should the constitution have this? That is sort 
of the debate.
    Mr. Weber. That is where self-determination comes in.
    Mr. Sorens. Yeah. So we can say maybe the constitution 
should recognize self-determination. As long as it doesn't, 
yeah, you got to follow the constitution, but maybe the 
constitution should be amended.
    Mr. Weber. The problem with people voting is that they are 
people voting. I yield back.
    Mr. Rohrabacher. Thank you very much. In a couple minutes 
here, we are going to have to adjourn. We have a vote on, but 
let me just note, one point my dear friend and colleague made 
about, well, if the South would have seceded, we would have had 
them as principle, if the South wouldn't have been preventing 
such a large chunk of their population not to have any rights, 
had all the slaves been citizens and been able to vote, yes, 
all of those people would then, in my mind, that would have 
justified their vote.
    Mr. Weber. But aren't those contradictory terms, Mr. 
Chairman?
    Mr. Rohrabacher. So, anyway, I do believe that is their 
right. And the other thing is, let me just note, we have a lot 
of these--there are countries all over the world right now, 
people, whether it is in Biafra--and there is bloodshed going 
on right now for people in Biafra--feel that they should be 
independent. We didn't back them up. I remember years ago when 
I was a kid, they had that same concept, the Baloch, people of 
Baloch, the Kosovars, I think this has not turned out the way 
it should have, because we have not had the courage of our 
conviction, but we had a little bit, enough to get involved but 
not enough to solve the issue of Sudan and the rest of this.
    Let me just note one issue that we will discuss in another 
hearing, which is, the most complicating factor to me, is that 
they are movements of populations by tyrants into people's area 
and the people there become overwhelmed because Stalin moves a 
bunch of people into Crimea or wherever, and it muddies up this 
issue.
    But thank you very much for sharing with us, starting this 
dialogue on an issue that has been ignored, and today, I 
declare that an open issue for discussion of self-
determination, but the end of this hearing.
    [Whereupon, at 3:42 p.m., the subcommittee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
         
         
        [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

                                 [all]
</pre></body></html>
